   DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                        Washington, D.C. 20201




January 19, 2011

TO:            Yolanda J. Butler, Ph.D.
               Acting Director
               Office of Community Services
               Administration for Children and Families


FROM:          /Lori S. Pilcher/
               Assistant Inspector General for Grants, Internal Activities,
                 and Information Technology Audits


SUBJECT:       Results of Limited Scope Review at Raleigh County Community Action
               Association, Inc. (A-03-10-00252)


The attached final report provides the results of our limited scope review at Raleigh County
Community Action Association, Inc. In accordance with the American Recovery and
Reinvestment Act of 2009, the Office of Inspector General (OIG) will provide oversight of
covered funds to prevent fraud, waste, and abuse.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to contact me at
(202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. We look forward to receiving
your final management decision within 6 months. Please refer to report number A-03-10-00252
in all correspondence.


Attachment
  Department of Health & Human Services
             OFFICE OF
        INSPECTOR GENERAL




RESULTS OF LIMITED SCOPE REVIEW
 AT RALEIGH COUNTY COMMUNITY
    ACTION ASSOCIATION, INC.




                        Daniel R. Levinson
                         Inspector General

                          January 2011
                          A-03-10-00252
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Community Services Block Grant (CSBG) program was authorized by the Community
Opportunities, Accountability, and Training and Educational Services Act of 1998, P.L. 105-285
to provide funds to alleviate the causes and conditions of poverty in communities. Within the
U.S. Department of Health & Human Services, the Administration for Children and Families
(ACF), Office of Community Services administers the CSBG program. The CSBG program
funds a State-administered network of more than 1,000 local Community Action Agencies
(CAA) that create, coordinate, and deliver programs and services to low-income Americans. The
CAAs provide services and activities addressing employment, education, housing, nutrition,
emergency services, health, and better use of available income.

Under The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received an additional $1 billion for the CSBG program for
States to alleviate the causes and conditions of poverty in communities. CSBG Recovery Act
funds are distributed to CAAs using the existing statutory formula.

West Virginia’s Governor’s Office of Economic Opportunity (GOEO) acts as the lead agency for
carrying out State activities for the CSBG program. GOEO is responsible for approving the
State’s CAA Recovery Act grant applications, and monitoring the CAAs for compliance with
program regulations. GOEO was awarded an additional $11,193,235 in Recovery Act funds for
the State of West Virginia’s CSBG program.

Raleigh County Community Action Association, Inc. (Raleigh), a private, nonprofit
organization, provides services to over 2,100 households throughout Raleigh County in West
Virginia. During fiscal year 2009, GOEO awarded Raleigh $519,665 in Recovery Act CSBG
funds, and $341,857 in regular CSBG funds for a total of $861,522 in CSBG grant funds.
Raleigh also received Federal Head Start funds and funds from four other Federal Departments.

OBJECTIVE

Our objective was to assess Raleigh’s financial viability, capacity to manage and account for
Federal funds and program performance requirements, and capability to operate its CSBG
programs in accordance with Federal regulations.

SUMMARY OF FINDINGS

Based on our assessment, Raleigh is financially viable, has the ability to manage and account for
Federal funds, and is capable of operating its CSBG programs in accordance with Federal
regulations. However, we noted weaknesses related to a lack of written policies and procedures
for use of consultants and for determining CSBG-specific program eligibility.




                                                i
RECOMMENDATION

In determining whether Raleigh is appropriately managing and accounting for Recovery Act and
regular CSBG grant funding, we recommend that ACF consider the information presented in this
report in assessing Raleigh’s ability to operate its CSBG programs in accordance with Federal
regulations.

RALEIGH COUNTY COMMUNITY ACTION ASSOCIATION, INC., COMMENTS
AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Raleigh did not concur with our findings but described
its corrective action plans to address them. We considered Raleigh’s comments and maintain
that our findings are valid. However, the actions that Raleigh described, if effectively
implemented, will address the findings. Raleigh’s comments are included in their entirety as the
Appendix.




                                               ii
                                                  TABLE OF CONTENTS
                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              Community Services Block Grant Program ..................................................1
              West Virginia’s Governor’s Office of Economic Opportunity......................1
              Raleigh County Community Action Association, Inc. ..................................1
              Requirements for Federal Grantees ...............................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope ..............................................................................................................2
               Methodology ..................................................................................................2

FINDINGS AND RECOMMENDATION.........................................................................3

          POLICIES AND PROCEDURES .............................................................................3

          RECOMMENDATION .............................................................................................3

          RALEIGH COUNTY COMMUNITY ACTION ASSOCIATION, INC.,
           COMMENTS ..........................................................................................................3

          OFFICE OF INSPECTOR GENERAL RESPONSE ................................................4

APPENDIX

         RALEIGH COUNTY COMMUNITY ACTION ASSOCIATION, INC., COMMENTS




                                                                    iii
                                      INTRODUCTION

BACKGROUND

Community Services Block Grant Program

The Community Services Block Grant (CSBG) program was authorized by the Community
Opportunities, Accountability, and Training and Educational Services Act of 1998, P.L. 105-285
(the CSBG Act), to provide funds to alleviate the causes and conditions of poverty in
communities. Within the U.S. Department of Health & Human Services (HHS), the
Administration for Children and Families (ACF), Office of Community Services administers the
CSBG program. The CSBG program funds a State-administered network of more than 1,000
local Community Action Agencies (CAA) that create, coordinate, and deliver programs and
services to low-income Americans. The CAAs provide services and activities addressing
employment, education, housing, nutrition, emergency services, health, and better use of
available income.

Under The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received an additional $1 billion for the CSBG program for
States to alleviate the causes and conditions of poverty in communities. CSBG Recovery Act
funds are distributed to CAAs using the existing statutory formula.

West Virginia’s Governor’s Office of Economic Opportunity

West Virginia’s Governor’s Office of Economic Opportunity (GOEO) acts as the lead agency for
purposes of carrying out State activities for the CSBG program. GOEO is responsible for
approving the State’s CAA Recovery Act grant applications and monitoring the CAAs for
compliance with program regulations. GOEO was awarded an additional $11,193,235 in
Recovery Act funds for the State of West Virginia’s CSBG program.

Raleigh County Community Action Association, Inc.

Raleigh County Community Action Association, Inc. (Raleigh), a private, nonprofit
organization, provides services to over 2,100 households throughout Raleigh County in West
Virginia. During fiscal year 2009, GOEO awarded Raleigh $519,665 in Recovery Act CSBG
funds, and $341,857 in regular CSBG funds for a total of $861,522 in CSBG grant funds.
Raleigh also received Federal Head Start funds and funds from four other Federal Departments.

Requirements for Federal Grantees

Pursuant to 45 CFR part 74, grantees of Federal awards must implement written accounting
policies and procedures and maintain financial systems that provide for accurate and complete
reporting of grant related financial data, effective control over grant funds, and allocation of
costs to all benefitting programs. Nonprofit organizations that receive CSBG funds must comply
with Federal cost principles found at 2 CFR part 230 (formerly Office of Management and
Budget Circular A-122, Cost Principles for Non-profit Organizations). The HHS Grants Policy


                                               1
Statement sets forth the general terms and conditions of HHS discretionary grants and
cooperative agreement awards. The CSBG Act establishes the CSBG program and sets the
requirements and guidelines for CSBG funds. The State of West Virginia CSBG Regulatory
Manual (Regulatory Manual) establishes State requirements for programs operated with CSBG
funds.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to assess Raleigh’s financial viability, capacity to manage and account for
Federal funds and program performance requirements, and capability to operate its CSBG
programs in accordance with Federal regulations.

Scope

We conducted a limited review of Raleigh’s financial viability, financial management system,
program performance requirements, and related policies and procedures. Therefore, we did not
perform an overall assessment of Raleigh’s internal control structure. Rather, we reviewed only
the internal controls that pertained directly to our objective.

We performed our fieldwork at Raleigh’s administrative office in Beckley, West Virginia, during
July 2010.

Methodology

To accomplish our objective, we:

   •    confirmed that Raleigh is not excluded from receiving Federal funds;

   •    reviewed relevant Federal laws, regulations, and guidance;

   •    reviewed relevant State guidance;

   •    reviewed Raleigh’s application and implementation of the grant awards for the Recovery
        Act funding;

   •    reviewed the findings related to the most recent State reviews;

   •    reviewed Raleigh’s policies and procedures related to its CSBG programs;

   •    reviewed Raleigh’s by-laws, minutes from the Board of Directors meetings, composition
        of Board, and organizational chart;

   •    performed audit steps to assess the adequacy of Raleigh’s current financial systems; and



                                                 2
   •   reviewed Raleigh’s audited financial statements and supporting documentation for the
       period of January 1, 2006, through December 31, 2008.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                           FINDINGS AND RECOMMENDATION

Based on our assessment, Raleigh is financially viable, has the ability to manage and account for
Federal funds, and is capable of operating its CSBG programs in accordance with Federal
regulations. However, we noted weaknesses related to a lack of written policies and procedures
for use of consultants and for determining CSBG-specific program eligibility.

POLICIES AND PROCEDURES

Pursuant to 45 CFR § 74.44(a) grantees of Federal awards must implement written procurement
procedures for solicitation of goods and services. Exhibit 4 of the HHS Grants Policy Statement,
page II-33, requires grantees to have written policies for the use of consultants. Section VI of the
Regulatory Manual states that grantees must implement written policies and procedures to
govern programs operated with CSBG funds, including intake and eligibility procedures.

At the time of our audit, Raleigh did not have written policies and procedures regarding the use
of consultants, specifically, procedures for selecting the most qualified individual available, for
determining the nature and extent of the services to be provided, and for ensuring that the fees
are reasonable in accordance with 2 CFR part 230, App. B § 37. From January through July
2010, Raleigh reported costs of $25,103 for consultants.

Raleigh also did not implement written CSBG intake and eligibility procedures as required by
the Regulatory Manual for 2009 awards.

RECOMMENDATION

In determining whether Raleigh is appropriately managing and accounting for the CSBG
Recovery Act and regular grant funding, we recommend that ACF consider the information
presented in this report in assessing Raleigh’s ability to operate its CSBG programs in
accordance with Federal regulations.

RALEIGH COUNTY COMMUNITY ACTION ASSOCIATION, INC., COMMENTS

Raleigh did not concur with our finding that it did not have written policies and procedures
regarding the use of consultants. Raleigh maintained that its existing purchasing and accounting
procedures constituted a consultant policy, but indicated that it had instituted a corrective action
plan to draft a consultant policy. Raleigh also maintained that CSBG-specific intake and


                                                 3
eligibility procedures were unnecessary because some of the CSBG services are supplemented
by other funding sources and that the Regulatory Manual allows CAAs to provide these services
subject to the eligibility guidelines of the other funding sources. However, Raleigh indicated that
it had instituted a corrective action plan to add CSBG eligibility criteria to the intake procedures.

Raleigh’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

Raleigh’s procedures for procurement of services did not address HHS’ Grants Policy Statement
guidelines that require recipients to have written policies governing the use of consultants. We
agree that, when CSBG services are supplemented by other funding sources, the Regulatory
Manual allows CAAs to provide these services subject to the eligibility guidelines of the other
funding sources. However, other services provided solely using CSBG funds are subject to the
requirement for written CSBG intake and eligibility procedures. For these reasons we maintain
that our findings are valid. However, the actions that Raleigh described, if effectively
implemented, will address the findings.




                                                 4
APPENDIX
                                                                                   Page 1 of 12



   APPENDIX: RALEIGH COUNTY COMMUNITY ACTION ASSOCIATION
                       INC., COMMENTS


                          Response to Findings and Recommendations
                                Report Number A-03-10-00252


Raleigh County Community Action Association Inc. does not concur with the findings
presented in the draft report issued on October 5, 2010, and respectfully requests that the
Office of Inspector General reconsider these findings based on the following responses:

Finding: RCCAA lacks written policies and procedures for the use of consultants,
specifically, procedures for selecting the most qualified individual available for
determining the nature and extent of the services to be provided, and for ensuring that
the fees are reasonable in accordance with 2 CFR part 23, Appendix B.

Response: Raleigh County Community Action Association, Inc. does not concur with
this finding. The HHS Grants Policy Manual requires that “Recipients must have written
policies governing the use of consultants that are consistently applied regardless of the
source of support. Such policies should include the conditions for paying consultant
fees.” RCCAA has written purchasing procedures in place which govern the
procurement of both goods and services. Under RCCAA’s current purchasing procedures,
consultant services would be procured in the same manner as other services. Section 3.0
of RCCAA’s Purchasing Procedures (attachment 1) outlines what steps should be taken
when planning for the purchase of goods and services and includes determining the
agency’s need and avoid purchasing unnecessary items, the evaluation of lease versus
purchase alternatives, the development of specifications including the requirements that
each bidder must fulfill and other factors to be used in evaluating proposals, and the
performance needs of the purchaser.

Section 3.3 of RCCAA’s current purchasing procedures also requires that “Cost
comparisons, time needs, skills, and experience should also be utilized in decisions to
hire or lease an employee.”

Section 5.1 of RCCAA’s current purchasing procedures (Attachment 2) requires the
“Program Director to determine if items requested are necessary, allowable, allocable,
and affordable in the current budget cycle,” thus fulfilling the requirement of 2 CFR part
230, Appendix B.

Raleigh County Community Action Association, Inc. also has an Accounting and
Financial Policies and Procedures Manual which provides detailed information regarding
when a worker is considered an Independent Contractor or an Employee (Attachment 3),
and how a worker will be paid if they are designated as an independent contractor.




RCCAA Response to Report A-03-10-00252       1
                                                                                 Page 2 of 12



Corrective Action Plan:
Although Raleigh County Community Action Association, Inc. does not concur with the
finding, a more concise Consultant Policy has been drafted and presented to the Board of
Directors for review. The adoption of the Consultant Policy is on the Board of Directors’
meeting agenda for the October 18, 2010 meeting, and if adopted, will be incorporated
into the RCCAA Purchasing Procedures.


Finding: Raleigh County Community Action Association, Inc. did not implement
written CSBG intake and eligibility procedures as required by the Regulatory Manual
for 2009 awards.


Response: Raleigh County Community Action Association, Inc. does not concur with
this finding. Although Section VI of the Governor’s Office of Economic Opportunity
CSBG Regulatory Manual for 2009 requires written policies and procedures including
intake and eligibility procedures, the manual goes on to state that “Grantees may provide
CSBG funded services to households with incomes up to 125% of the poverty guidelines.
OMB poverty income guidelines apply to CSBG funded services and to services provided
by CSBG funded staff. However, if CSBG funded staff provide services provided by
other funding sources with income guidelines that differ from the CSBG guidelines,
the other funding sources’ guidelines shall apply for those services.” (Attachment 4)

Page 66 of the RCCAA Management Guide (Attachment 5) contains intake procedures
that must be used for all RCCAA programs. These procedures describe the process for
verify income and entering information in the State’s mandated system (DBA FacPro).
When intake information is entered in to FacsPro, the system automatically calculates at
what percentage of poverty to individual and family falls. The intake procedures require
employees performing intakes to “see program procedures for additional program
specific intake guidelines.” Eligibility guidelines would fall under the “additional
program specific intake guideline,” given that many of the programs operated by
RCCAA have different eligibility guidelines.

RCCAA utilizes its CSBG funds, in combination with various other funding sources
including the Federal Transit Authority, the West Virginia Division of Transportation, the
City of Beckley, and the Raleigh County Commission to operate the County’s only
Public Transportation Program. This program is open to anyone who needs public
transportation, but is generally utilized by the elderly, disabled, and low income
populations. The Public Transportation Program is improving the conditions in which
low-income people live by improving and revitalizing the entire community. The
outcomes of this effort are measured by the access to new, preserved, or expanded
transportation resources available to low income people. The public transportation
system operates in these low income areas and throughout Raleigh County. It would be




RCCAA Response to Report A-03-10-00252      2
                                                                                   Page 3 of 12



impossible to establish strict CSBG intake and eligibility criteria for a program with such
a wide base of funding sources and such wide reaching community outcomes.

Because of the nature of the service, the lack of income based eligibility criteria of the
other funding sources being used to fund the program, and the stipulation in the
Regulatory Manual for 2009 that states if CSBG funded staff provide services provided
by other funding sources with income guidelines that differ from the CSBG guidelines,
the other funding sources’ guidelines shall apply for those services; RCCAA does not
feel that CSBG-specific eligibility criteria should be required in the program specific
intake and eligibility procedures as required in the Regulatory Manual for 2009.

Corrective Action Plan: Although Raleigh County Community Action Association, Inc.
does not concur with the finding, in an effort to ensure that all CSBG requirements are
clearly being met; CSBG eligibility criteria will be added to the intake procedures as
established in the RCCAA Management Guide.




RCCAA Response to Report A-03-10-00252       3
                                                                                     Page 4 of 12




Section 3.0: Preparing For A Purchase

3.1 	   Preparing for a purchase: Planning is a crucial element of purchasing.
        Employees must plan in advance what goods and services will be needed, the
        quantity, delivery location, and the time frame for which they need the goods and
        servICes.

        When preparing for a purchase, the following steps should be taken:

           •	   Determine the agency's need and avoid purchasing unnecessary items.
           •	   Create specifications for the good or service.
           •	   Consider lease versus purchase alternatives.
           •	   Determine a time frame in which the good or service needs to be received.
           •	   Determine to whom and where the goods should be delivered.
           •	   Identify possible vendors.

3.2 	   Specifications: A specification is a concise statement indicating the type of good
        or service, quantity, performance requirements, delivery options, usage
        information, and any special requirements.

        Specifications should clearly state the following:

           1. 	 A clear and accurate description of the technical requirements for the good
                or service. Specifications may not be restrictive (prevent or limit
                competition) or be vague.
           2. 	 Requirement(s) that the bidder must fulfill and all other factors to be used
                in evaluating bids or proposals.
           3. 	 Brand Name(s) or Equal products desired.
           4. 	 Performance needs of the purchaser (indicate service, warranties, and what
                benefit the product should provide and minimum acceptable standards).
           5. 	 Design requirements (specifically state any requirements that the product
                must contain. Example: Copy paper must be white, 8112" x II ").
           6. 	 To the extent practical, products and services should conserve natural
                resources, protect the environment, and be energy efficient.

        The specifications should include a range of acceptable characteristics or
        minimum acceptable standards.

3.3 When appropriate an analysis is made oflease and purchase alternatives to
    determine which would be the most economical and practical procurement.
    I . 	 If the item or property is to be utilized on a short-term basis, it may be more
          economical to lease than purchase.
    2. 	 If funding is not available to purchase, the item or property may be obtainable
          through leasing.
    3. 	 If the item or property will become outdated in a short time period or requires
          costly and/or frequent maintenance, it may be better to lease than purchase.


RCCAA Purchasing Procedures                   4	                                 Revised 10/09
                                                                                     Page 5 of 12



   4. 	 If the cost of leasing an item for a certain period of time is greater than the cost to
        purchase, then the item or property should be purchased.
   5. 	 Care should be taken in assessing a proposed lease contract regarding:
             a) The time length of the lease
             b) Buyout/termination options of the lease (note cost)
             c) Lessee and Lesser obligation of insurance, maintenance, and
                improvements of the item or property.
   6. 	 Cost comparisons, time needs, skills, and experience should also be utilized in
        decisions to hire or lease an employee.
   7. 	 Lease agreements with over a one-year program/project term must contain an
        addendum or clause allowing the Agency to terminate the lease with a 30-day
        notice if the governmental funding is reduced or eliminated or if the item or
        property is rendered unusable by fire, weather damage, or other unforeseen,
        uncontrollable circumstances through no fault of the Agency.




RCCAA Purchasing Procedures                   5	                                  Revised 10109
                                                                                       Page 6 of 12




Section 5.0: Requisition of Purchase

5.1      Purchase Requisition:

      • 	 Upon documentation of specification requirements, a purchase requisition must be
          completed.

      • 	 The purchase requisition must state in detail the quantity, item description, unit
          (case, gallon, box, package), price per unit, and amount of the total expenditure.

      • 	 The purchase requisition is to be completed by the employee requesting the good
          or servIce.

      • 	 Upon completion, the employee is to make a copy and forward the original form
          to the Program Director or his or her designee for approval.

      • 	 The Program Director will determine if the items requested are necessary,
          allowable, allocable, and affordable in the current budget cycle; then forward the
          Purchase Requisition to the Executive Director or his or her designee for
          approval.

      • 	 Recurring, scheduled purchases (i.e. utilities, rent, and telephone services) do not
          require a requisition after the initial requisition for service; however, the services
          should be re-evaluated annually to ensure that the contracts continue to meet the
          needs of the agency.




RCCAA Purchasing Procedures                      9	                                 Revised 10/0 9
                                                                                        Page 7 of 12


PAYROLL AND RELATED POLICIES

Classification of Workers as Independent Contractors or Employees

It is the policy of RCCM to consider all relevant facts and circumstances regarding the relationship
between RCCM and the individual in making determinations about the classification of workers as
independent contractors or employees. This determination is based on the degree of control and
independence associated with the relationship between RCCM and the individual. Facts that provide
evidence of the degree of control and independence fall into three categories:

1.     Behavioral control
2.     Financial control
3.     The type of relationship of the parties

Facts associated with each of these categories that will be considered by RCCM in making
employee/contractor determinations shall include:

1. 	   Behavioral control :

       a. 	    Instructions given by RCCM to the worker that indicate control over the worker
               (suggesting an employee relationship), such as:

               (1) 	   When and where to work
               (2) 	   What tools or equipment to use
               (3) 	   What workers to hire or to assist with the work
               (4) 	   Where to purchase supplies and services
               (5) 	   What work must be performed by a specified individual
               (6) 	   What order or sequence to follow

       b. 	    Training provided by RCCM to the worker (i.e. employees typically are trained by their
               employer, whereas contractors typically provide their own training)

2. 	   Financial control :

       a. 	    The extent to which the worker has unreimbursed business expenses (i.e. employees
               are more likely to be fully reimbursed for their expenses than is a contractor)
       b. 	    The extent of the worker's investment in the facilities/assets used in performing services
               for RCCM (greater investment associated with contractors)
       c. 	    The extent to which the worker makes services available to the relevant market
       d. 	    How RCCM pays the worker (i.e. guaranteed regular wage for employees vs . flat fee
               paid to some contractors)
       e. 	    The extent to which the worker can realize a profit or loss.




                                                   41 

                                                                                          Page 8 of 12


3. 	   Type of Relationship:

       a. 	    Written contracts describing the relationship that RCCAA and the individual intend to
               create
       b. 	    Whether RCCAA provides the worker with employee-type benefits, such as insurance,
               paid leave, etc.
       c. 	    The permanency of the relationship
       d. 	    The extent to which services performed by the worker are a key aspect of the regular
               business of RCCAA

If an individual qualifies for independent contractor status, the individual will be sent a Form 1099 if
total compensation paid to that individual for any calendar year, on the cash basis, is $600 or more.
The amount reported on a Form 1099 is equal to the compensation paid to that person during a
calendar year (on the cash basis) . Excluded from "compensation" are reimbursements of business
expenses that have been accounted for by the contractor by supplying receipts and business
explanations.

If an individual qualifies as an employee, a personnel file will be created for that individual and all
documentation required by the RCCAA personnel policies shall be obtained . The policies described in
the remainder of this section shall apply to all workers classified as employees.




                                                    42 

                                                                             Page 9 of 12


             •	    Intake procedure, including instructions for using all agency intake
                   and application forms . GOEO requires that all grantees use the
                   V'N Universal Intake form for general service provision . Grantees
                   may perform live intake via DBA FACS Pro TM , but a signed
                   disclaimer must be kept as part of the customer's hard copy files .

             •	    Eligibility criteria, including the income verification period , income
                   guidelines, eligibility period. GOEO requires that grantee's have
                   available a minimum of 1 month income documentation for all
                   service records . These documents may be maintained in electronic
                   format as long as they are part of the customers DBA FACS Pro™
                   service record.

             •	    United State residency verification procedures and criteria . GOEO
                   requires that grantees verify residency through some form of legal
                   residency documentation including driver's license, birth certificate
                   or V'N DHHR referral documents. These documents may be
                   maintained in electronic format as long as they are part of the
                   customers DBA FACS Pro™ service record .

             •	    Procedures for recertification of eligibility. GOEO requires that
                   grantees document their process in customer recertification.

             •	    Customer appeal procedure.

             •	     Customer privacy rights.

       Programs operated with CSBG funds must follow poverty income guideline limits
set by the Federal DHHS.

        Grantees may provide CSBG funded services to households with incomes up to
125% percent of the poverty income guidelines. OMB poverty income guidelines apply
to CSBG funded services and to services provided by CSBG funded staff. However, if
CSBG funded staff provide services funded by other sources with income guidelines
that differ from the CSBG guidelines, the other funding sources' guidelines shall apply
for those services.

CUSTOMER SERVICE RECORDS

        Determining allowable costs shall be referred to OMB Circular A-122 and meet
the criteria as stated. (www.whitehouse.gov/omb/circulars/index.htmland refer to A­
122) Records must be kept of each customer intake, whether later determined ineligible
or not.

      Intake forms must be uniform among all centers via the V'N Universal Intake
Form and include the following information :

      •	     Date of intake;

                                                                                       27
                                                                                  Page 10 of 12


                                          Intake Procedure

      1. 	 Every client that receives service from RCCAA must complete an intake form.

      2. 	 Intakes must be entered into DBA FACS Pro within 48 hours.

      3. 	 Intakes must be signed by the client and the staff member completing the intake.

     4. 	 Clients must sign the Privacy Posting Notice at the time of intake. An Income Verification
          Worksheet must also be completed and signed by the employee that verifies the income.

     5. 	 Proof of income should not be maintained within the client's file.

     6. 	 See program procedures for additional program specific intake guidelines.




Intake Procedure                              66                         RCCAA Management Guide
10/09                                                                              October 2009
                                                                                                                                                                        Page 11 of 12


                                            Association
  Raleigh County Community Action Association - Central                                  IntakeForm
                                                                               - Centra/Intake Form




   First Name:	            _ _ _ _ _ _ _ _ _ _ _ _ _ M.I.
                                                     M.I.                                   LastNarrm:
                                                                                           Last  Narr:                                                        Suffx:
                                                                                                         ---------------------
  MaUioo Address:
  Mailing Address:
                                                                 PhysicalAddress:
                                                                                   Physical Address:      Same
                                                                                                           Same as
                                                                                                                es Mailing,
                                                                                                                   Mailing: I          L . I_ _ _ _- '




                 Address:_ _ _ _ _ _ _ _ _ _ _ _ _ _ __
                Address:                                                                    Address:
                                                                                             Address:_ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ __


                     Clly:
                     City:	_ _ _ _ _ _ _ _ _ _ _ _ __                                            Cily:
                                                                                                 Clly:_ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ ___

                     Slale;_ _ __
                     Slale:                       Zip Code:_ _ _ _ _ __
                                                   ZipCode'                                     Slale:
                                                                                                Stale:_ _ _ __        ZipCode:
                                                                                                                      Zip Coda:_ _ _ _ _ _ _ _ _ __

    Persona/Info:
    Personal Info:
   SSN:                                                                                  Dateof
                                                                                         Date ofBirth:
                                                                                                Birth:

      Reason for
              for not
                  not provJdlng
                      orovJdlna SSN:
                                SSN: 	
                                                                                                     ---------------------                                 (MM1 DD/YVYY)
                                                                                                                                                          (MM   I DDIYYJ
      Reason
                                             CJ
                                             CJ               Canfidenllel
                                                              Confidenllal
                                                                                                 Phone
                                                                                                 Phone Numbers:
                                                                                                       Numbare:
                                                                                                                    Cell
                                             CJ
                                             CJ              Refused
                                                             Rafused
                                                                                                                    Call
                                                                                                                    Home
                                             CJ
                                             CJ               Unavallabla -- Cannol
                                                              Unavailable    Cannot provide
                                                                                    provide
                                                                                                                    Home

                                             CJ
                                             CJ              Unknown--Will
                                                             Unknown  Wil provide
                                                                           provida
                                                                                                                    Message
                                                                                                                    Message
                                                                                                                    Pager
                                                                                                                    Pager
  Emall address:
  Email eddress: 	                                                                                                  Work
                                                                                                                    Work

   Demograp/iics: ..
   DemoI/,apllics:

  Gaedar:
  Gander:                 UMaie
                          U M a ie               UFemaia
                                                UFemaie                                           ~:
                                                                                                  ~:                 DNon-Hlspanic
                                                                                                                     DNon-Hlspanic                      DHlspanlc
                                                                                                                                                         UHlspanlci Lallno
                                                                                                                                                                     I latino


  MarItal Status:
  Mgrltglf;!ll!us;                                                                                 ~

                          ~
                                              DI"'rced
                                              Dh<lfced                                                                              11 Black
                                                                                                                                       Blac
                                              Married                                                                               22 Multkace


                                                                                                                   ~
                                                                                                                                       Mullkace
                                              Parter
                                              Perlner                                                                               33 White
                                                                                                                                       White
                                              Seperatad


                          ~
                                              Separated                                                                             44 O1her
                                                                                                                                       O1har
                                              Single
                                              WIdowed



 Prlmarv Lanoua",:
 Prlmarv langua!!!!:           Engllah	
                               English       DVas
                                             DYas             DNa
                                                              DNa                             ChBracterlsflcs:
                                                                                              Characterlsflcs:             S• •   ""'cl aq tha'apply)




                                                                                                                  §
                                                                                                                                       Applicant
                                                                                                                                       Applicant
                                  Spaclly:
                                  Spaony; 	                                                                                            Disabled
                                                                                                                                       Dleabled
                                                                                                                                       Mig"'"t 1 Seasonal
                                                                                                                                       Migranll  SaasonalWorker
                                                                                                                                                          Worer
                                                                                                                                       No HoaIlh Insurance
                                                                                                                                          Hoalh Insurance
 Tribe:
 Tribe: 	                                    DYes
                                             DYes            DNo	
                                                             DNo 	                                                             Veteran
                                                                                                                   858 salcl aqVetern
                                                                                                                                /hat appl)

                                  Spaclfy;
                                  Spaclfy;



 Famllv
 Family Type:
        Type:                                                                                        Educatlon:
                                             Grandparenl!s)
                                             Grandparenl(s) (raisIng
                                                            (raisIng grBndch/ldren)
                                                                     grBndchlldren) 
                                                 0-8
                                                                                                                                      0-8
                                             MUllple
                                             Mulliple adults
                                                      edulls (no cMdren)
                                                                  chUdren)                                                            99 -121 Non.graduate
                                                                                                                                         -121Non.graduate

                                             Mulliple
                                             Mulliple adulls (Jivng
                                                             (Jiving wflh
                                                                     wflh chIldren)
                                                                          chlldr.n)                                                               graduate I1GED
                                                                                                                                      High school graduale
                                                                                                                                      HIgh                   GED
                                             Single
                                             Single parenl
                                                    perenl female
                                                           femele (livng
                                                                  (livingwith
                                                                         with chl/dren)
                                                                              children)                                               12+ some
                                                                                                                                      12+ some POsl
                                                                                                                                               postsecondary
                                                                                                                                                    secondary
                                             Single
                                             Single parent
                                                    parenl mele
                                                           mele(livng
                                                                (livingwIth
                                                                       with chIldren)
                                                                             children)                                                Some CollagelCartlfcatefTrade
                                                                                                                                      Some Collage/CertlflcalefTrada
                                             Single
                                             Single person
                                                    person (livng
                                                            (livinge/one)
                                                                   alone)                                                             22 or
                                                                                                                                         or 44 year College Graduale
                                                                                                                                               year College Graduate
                                             Single parson(living
                                             Single parson (livng with
                                                                  with partner)
                                                                       perter) 	                                                      Post Graduale
                                                                                                                                      Post Graduate
                                             Two
                                             Two parenl
                                                 parenl housahold
                                                        household (livng
                                                                  (livingWIUI
                                                                          w/U. children)
                                                                               children) 	                                            Unknown
                                                                                                                                      Unknown



Uvlna
UvlngArranaements
      ArrangementsI IHouslno:
                      Houslngj 	                                                                  Dwellinn
                                                                                                  DwellingTvpe:
                                                                                                           Type:

                                             Homeless
                                             Homeless                                                                                 SUe Built
                                                                                                                                      SlIa Built (Buill
                                                                                                                                                 (8ulll from
                                                                                                                                                         from the
                                                                                                                                                               Ihe bollom
                                                                                                                                                                   bollom up)
                                                                                                                                                                           up)
                                             Living
                                              Living wllh
                                                     wllh(ñends
                                                          friends or
                                                                  orfamily
                                                                     family                                                           Modular (doesn't
                                                                                                                                      Modular           have wheels)
                                                                                                                                               (doesn't have wheels)
                                             Own
                                              Own                                                                                     Doublewide
                                                                                                                                      Doublewide
                                          Renl
                                          Renl (subsIdized
                                                (subsidized- -Hud,
                                                              Hurl, Section
                                                                    Section8,8,efc.)
                                                                                etc.)                                                 MobileHome
                                                                                                                                      Mobile Home
                                             Renl
                                             Renl (unsubsldled)
                                                  (unSUbsldized) 	                                                                    MobileHome
                                                                                                                                      Mobile HomewiUi
                                                                                                                                                  wilhadd
                                                                                                                                                       addon
                                                                                                                                                           on
                                          TransWonel  i Sheller	
                                           TransiJionall SheUer                                                                        RoVlHouse
                                                                                                                                      RoVl House
                                          Olhr
                                          Olher 	                                                                                    Mulli-femllyunll
                                                                                                                                     Mull-famlly  unll
                                                                                                                                      Duplex
                                                                                                                                      Duplx
                                                                                                                                           UnllRenlal
                                                                                                                                     3-3-4Unll  Renlal
                                                                                                                                      ShaUer
                                                                                                                                     Shaller
                                                                                                                                      Transitional
                                                                                                                                     Transitionl
                                                                                                                                      Olher
                                                                                                                                     Oloor



lest
 lestRavbcd
      Ravbcd Selonier
             Seploniler205
                        2005
                                                                                                                                                                                                             Page 12 of 12

       lI -~~~"#.'''''.-J                           "C7-..-J


                                    Source , , Amount'
                                    Source       Amount
                                                                     o           NOINCOME
                                                                                 NO INCOME SOURCES
                                                                                           SOURCES

                                                                                                               >                                                      .Source 'Number

                                                                                                                                                                     .Source      'Number
   Alimony /child
   Alimony!  childsupport
                   support                                                                                                                  Drivers
                                                                                                                                            DriversLicense
                                                                                                                                                    License
        rnings
       rnings                                                                                                                                Insurance
                                                                                                                                            Insurance
       .ùcalionalAssistance
      .tlca1ional Assistance                                                                                                                CHIP's
                                                                                                                                            CHIP's
   Eslates
   Estates !/trusts
             lrusls                                                                                                                         WXID#
                                                                                                                                            WXID#
    Inlerestl dividends
   Interest!  dividends                                                                                                                     Other
                                                                                                                                            Olher
   Miscellaneous
   Miscellaneous                                                                                                                            Other
                                                                                                                                            Other
   Outside / Public
   Outside!  Public Assistance
                    Assistance (nol
                                (no! TANF)
                                     TANF)
   Pension / Retiremenl
   Pension!  Retiremenl
   Rental Income
   Rental Income
   Royalties
   Royalties                                                                                                                                Name
                                                                                                                                            Name                                      Contact Info
                                                                                                                                                                                      Contact Info                                   Relationship
                                                                                                                                                                                                                                     Relationship
  Social Security
  Social Security
  SSI
  SSI
  TANF
  TANF
  Unemploymenl
  Unemploymenl
  Veteran's
  Veteran's Benefits
            Benefits

  Workers Compensalion
  Worker's Compensalion

                                                                   TOTAL
  Non-cash
  Non-cash
  Food Stamps,
  Food Stamps, housing subsidies, etc.
               housing subsidies, etc.
-------- - ~ ----- ----_. - -- - ­
--------Previous
         ­ ----- ----- ­ - -­
               ~
                 Seivice Info:
                                                 - -
         Previous Service Info:
  Has anyone
  Has anyone In
             In this
                this household
                     household ever
                               ever received
                                    received assistance
                                             assistance from
                                                         from RCCAA?
                                                              RCCAA?
                                                                                                                                 DYes D
                                                                                                                                 DYes D No
                                                                                                                                         No
  If Yes,
  If Yes, what
          what services?
               services?                                                                                                                          When?




                   ~ , .,
  Which
  Which of
        of the
           the follOWing  doyou
                             you need
                                 need help
                                      help with
                                           with right
                                                right now?




                                                                                                                                                                                                 ~
               following do                           now?                                                                                                                                        WhO;~:~;;d
                                                                                                                                                                                                 ~WhO ;~:~;;d you
                                                                                                                                                                                                               you to us?
                                                                                                                                                                                                                   to us?
  Note:
  Note: This
        This agency mey not
             agency mey nol provide
                            provide a/l
                                    all of
                                        of these
                                           Ihese services,
                                                 servces, but
                                                           but thIs
                                                                this informallon
                                                                     informal/on may help /n
                                                                                 may help In providing
                                                                                             providing you
                                                                                                       you wllh
                                                                                                           with relerrals.
                                                                                                                referrals.
                               Abuse    Inlervenlion Home
                               Abuse Intervention         buyers
                                                        Home buyers assistance
                                                                    assistance     ~ Senior
                                                                               ~ Senior long-lerm   care
                                                                                            long-term care                                                                                                Friend
                               Addiclion
                               AddIction help help Home    repair/rehab Shelter
                                                    Home repair/rehab      Shelter                                                                                                                                Website
                                                                                                                                                                                                          Inlemel website
                               BUd.   gellcredll
                               BUd.gellcredll          counseling
                                              counseling      HomeHome  Weatheriza lion Tax Tax
                                                                   Weatherization           assistance

                                                                                                assistance                                                                                                Phone book

                                                                                                                                                                                                          Phone book
                               Child
                               Child care care Job Assistance
                                                        Job Assislance    Transportation

                                                                                  Transportation                                                                                                          Radio
                                                                                                                                                                                                          Radio
                               Child
                               Child medicalmedical
                                             Insurance Insurance
                                                        Legal          Legal Utilties

                                                                                  Utilities                                                                                                               Television
                                                                                                                                                                                                          Television
                               Clothing
                               Clothing    LIteracy, GED         prep/lest
                                                      LIteracy, GED  prep/tesl Other: please ex la!n)
                                                                                       ~~,-:=';:~~=;:='--II                                                                                               Other Agency:(which?)
                                                                                                                                                                                                          Olher  Agency:(which?)
                               Counseling
                               Counseling     Medical      care
                                                      Medical  care
                               Food
                               Food      Head Slart / Head
                                                      Parenllng           skils
                                                            Start / Parenting skills
                               Food     Stamps Rent
                               Food Stamps       Rent

                                    i". .,
 ~~ . give Raleigh Counly Community     . give Ralalgh  Counly Communily
                                                Acton Assolallon,        Inc. Aclion     Associallon,
                                                                                 consanllo       release,  Inc. oblein
                                                                                                                 consanland  to ralaase,  oblain
                                                                                                                                  share all        and shere all pertlnenlldenlilying
                                                                                                                                                pertlnenlldanlilying                       and nonconfidenlial
                                                                                                                                                                             and noncOltidanlial          social,soclel,    medical
                                                                                                                                                                                                                     ffadical     and and  olher
                                                                                                                                                                                                                                       other      inlormallon
                                                                                                                                                                                                                                               informallon

 aboul
  aboul myselllhal
        mysell lhal wil
                      willallow
                           allow ma
                                 me 10   beneri lrom
                                     10 benem    fro servces
                                                      salVieasoffaiad.
                                                               oHOIed.InIngranling
                                                                              granlingsuchsuch pels,lan,
                                                                                                 permission, I undersland
                                                                                                                  I undersland  lhallhal
                                                                                                                                      such  Information
                                                                                                                                         such  InloJmalion wilwill
                                                                                                                                                               remain   confidenllel
                                                                                                                                                                    remain conlidenllelendandIhel sUch infarmetion
                                                                                                                                                                                               IhalsUch    InlormalionwUl wUl only
                                                                                                                                                                                                                              only ba
                                                                                                                                                                                                                                   be used
                                                                                                                                                                                                                                       used ror  my banefil
                                                                                                                                                                                                                                             for my   beem or
 10  benri olher
  10 benefll olher mambars
                   membars 0101mymy     lemlly.
                                      lemlly.    Only
                                              Only     authorized
                                                    authorized      persoel
                                                               personnel     willwilshare
                                                                                      share   clierilnloralion needed
                                                                                           clienllnformalion        neadedlor  forservice
                                                                                                                                    servcedelivery,
                                                                                                                                             delivry,10tolrack
                                                                                                                                                          lrackdemographic
                                                                                                                                                                   damographlc    tres, ..rvce pallems
                                                                                                                                                                               lrends••elVice      pallems.ndandlhe
                                                                                                                                                                                                                  Iheollent.oulcoes
                                                                                                                                                                                                                       clienl.oulcomes achieved.
                                                                                                                                                                                                                                          achieved.1 Irelaesa
 Raleigh
  Raleigh Counly
          Counly Community        AclionAssocialion.
                    Communily Action      Association.Inc.
                                                        Inc.and
                                                             endlis
                                                                  115   slall
                                                                     slaff    Irom
                                                                           from   anyeny   lagalliebllity
                                                                                       legal   liability lorlor  diSClosing
                                                                                                             disclosing          or acqUiring
                                                                                                                            or acquiring        inlorallOllhat Ihave
                                                                                                                                            inlormalionIhalI       havepermllled
                                                                                                                                                                        permiled byby signing
                                                                                                                                                                                       signing Ihis
                                                                                                                                                                                                ihis loon.
                                                                                                                                                                                                     fonn. Unless
                                                                                                                                                                                                            Unless II make
                                                                                                                                                                                                                       make aa lormal
                                                                                                                                                                                                                                lonmal request
                                                                                                                                                                                                                                        requeslloto CAA
                                                                                                                                                                                                                                                     CM
 Name
  Name Ihall
        (hallnonolonger
                   longorwent
                           went10   participate in
                                 10 participate in the
                                                   the services
                                                       servces offelBd,
                                                                 offered, this
                                                                           this release     wil remaÎn
                                                                                 release will    rem Bin inin force
                                                                                                               force lor
                                                                                                                      lor 33 years
                                                                                                                             years from
                                                                                                                                     from today.
                                                                                                                                           today. The
                                                                                                                                                   The slalemenls
                                                                                                                                                        slalemenlsmade madebybyme
                                                                                                                                                                                meon onthÎs
                                                                                                                                                                                          thisconsent
                                                                                                                                                                                               consentronn
                                                                                                                                                                                                         lonnare
                                                                                                                                                                                                               aretrue,
                                                                                                                                                                                                                    truB,correel
                                                                                                                                                                                                                           correel
 and  complela   to i/ besl  01 my  knowledge.
  end complele 10 !he baSi of my knowledge.


                                                                                                                                               you have
                                                                                                                                          IfIf you have any
                                                                                                                                                        any questions or concerns, please
                                                                                                                                                                                   please don't hesllate
                                                                                                                                                                                                hesitate to
                                                                                                                                                                                                          to conlact
                                                                                                                                                                                                             contact
                                          Signature
                                          SignatureofofCuslomer
                                                       Customer                                                                            us at:
                                                                                                                                          us   at
      II have
         haveexplained
              explainedto              to the purpose      of this of
                                                       the purpose  release    and and
                                                                      this release  thethe
                                                                                        disclosure
                                                                                           disclosure                                                         Raleigh
                                                                                                                                                              Raleigh County
                                                                                                                                                                      County Communlly
                                                                                                                                                                             CommunllyAclion
                                                                                                                                                                                       Action Associalion
                                                                                                                                                                                              Associalion
                                       that
                                        thatmighl
                                             mightreasonably
                                                    reasonably be
                                                                beanticipated,
                                                                   anticipated.
                                                                                                                                          Address
                                                                                                                                          Address 299299
                                                                                                                                                      Grey  Flats
                                                                                                                                                         Grey FlatsRoad
                                                                                                                                                                    Road
                                                                                                                                                          P.O. Box
                                                                                                                                                          P.O.      3066
                                                                                                                                                                Box3066
                              Signature
                              Signatureof
                                        ofRCCAA
                                          RCCAA staff
                                                 staff member
                                                       member                                                                             City,
                                                                                                                                          City, Stale
                                                                                                                                                StateZII
                                                                                                                                                      ZII Beckley,
                                                                                                                                                           Beckley,WV
                                                                                                                                                                   YIN 25801
                                                                                                                                                                        25801
                                                                                                                                          Phone
                                                                                                                                          Phone-- FAX
                                                                                                                                                    FAX 304-252-6396
                                                                                                                                                            304-252-6396--255-9138
                                                                                                                                                                            255-9138
                                                                                                                                          Email
                                                                                                                                          Email
                                                  Dale
                                                  Dale                                                                                    Web
                                                                                                                                          Web


 Raleigh
 Raleigh County
         County Community
                Community Action Associalion,
                                 Associalion, Its
                                               Its agenl.
                                                   agenl, partners
                                                          partners and funding
                                                                       funding sources do not discriminate
                                                                                              discriminale on
                                                                                                           on the
                                                                                                               the basis
                                                                                                                   basis of
                                                                                                                         01 race, color,
                                                                                                                                  color, sex,
                                                                                                                                          sex, age,
                                                                                                                                                age, religion,
                                                                                                                                                      religion, national
                                                                                                                                                                 nalienalorigin,
                                                                                                                                                                          origin,disabllt~
